           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        OFFICE OF HEARINGS
           AND APPEALS
        PRE-EFFECTUATION
         REVIEW PROCESS

  September 2005    A-02-03-13083




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 19, 2005                                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Office of Hearings and Appeals Pre-Effectuation Review Process (A-02-03-13083)



        OBJECTIVE

        Our objective was to determine the effectiveness of the Office of Hearings and Appeals’
        (OHA) Pre-Effectuation1 Review (PER) process. Specifically, we reviewed whether the
        OHA PER process helped to improve the implementation of the policies related to
        administrative law judge (ALJ) decisionmaking.

        BACKGROUND

        The Social Security Administration (SSA) has two long-term disability programs.
        Disability Insurance (DI) is authorized under Title II of the Social Security Act. Through
        the DI program, eligible workers receive monthly benefits if they are found to have a
        disability that prevents them from engaging in substantial gainful activity2 which will last
        at least 12 months or result in death. Supplemental Security Income (SSI) is authorized
        under Title XVI of the Social Security Act and provides monthly payments to disabled
        individuals based on financial need, in addition to meeting the same medical
        requirements as the DI program.

        To establish eligibility, a claimant must file a disability application with SSA. Once an
        application is received, SSA forwards it, along with any medical or vocational evidence
        provided by the applicant, to a Disability Determination Services (DDS) office. The DDS

        1
         “Pre-effectuation” means that the review was performed after the ALJ’s original hearing allowance
        decision and before the first payment was made (OHA PER Review Process Guide dated May 22, 2003,
        Exhibit 3).
        2
         “Substantial gainful activity” means the performance of significant physical and/or mental activities in
        work for pay or profit, or in work of a type generally performed for pay or profit, regardless of the legality
        of the work. “Significant activities” are useful in the accomplishment of a job or the operation of a
        business, and have economic value (POMS DI 11010.190) (20 C.F.R. §§ 404.1510, 404.1572, 416.910,
        and 416.972).
Page 2 - The Commissioner


reviews the medical and vocational information provided, and collects additional
information if it is needed, to determine each claimant’s eligibility for disability benefits.
Once DDS staff determines whether an applicant should be awarded disability benefits,
SSA informs the applicant of its decision. The decision notice contains instructions on
how to file an appeal. The claimant has 60 days from the date the notice is received to
file a written appeal for either Title II or Title XVI denials.

If a claimant requests an appeal, SSA reconsiders its initial determination. If the
claimant is dissatisfied with the reconsidered determination, the claimant may request a
hearing before an ALJ in OHA. A claimant does not have to receive a denial to appeal.
For example, a claimant who received a partially favorable decision may also appeal.

At the hearing, the ALJ considers the evidence of the case—including any new
evidence concerning the claimant’s physical and mental impairments that was
submitted subsequent to the initial determination. An ALJ may obtain testimony related
to the applicant’s disability from medical and/or vocational experts. Further, the
claimant has the opportunity to testify in support of their disability claim. After
considering the full body of evidence, the ALJ issues a decision on the claimant’s
eligibility for disability benefits. The ALJ’s decision is based on the evidence, relevant
law, and published rulings and policies, including Social Security Rulings (SSR).

SSA instituted the OHA PER process in August 1998.3 The OHA PER process is a
quality control review of a sample of cases that had favorable decisions by ALJs,
i.e., the ALJs disagreed with SSA’s initial determinations and found the claimants
eligible to receive disability benefits. The OHA PER process was implemented to
identify incorrect hearing allowances, to promote consistent case adjudication and to
review, as well as to identify policy and procedural issues arising during the review.
This process occurs after an ALJ makes a decision on a case, but before the claimant is
paid benefits.

The first phase of the OHA PER process involves a review by SSA’s Office of Quality
Assurance and Performance Assessment (OQA). Since 1998, OQA has selected a
sample of approximately 6,400 to 8,500 cases annually that are likely to have a higher
rate of error than other cases. OQA staff review each case in the sample. If OQA
agrees with the decision an ALJ made on a given case, the process to effectuate the
ALJ’s decision is continued. If OQA disagrees with the decision made by an ALJ, the
case is forwarded to the Appeals Council (AC) for further review. The AC is an
appellate body of Administrative Appeals Judges within OHA.

The AC reviews the cases forwarded by OQA. If the AC disagrees with OQA’s
concerns with a case, the process to effectuate the ALJ’s decision is continued. If the
AC agrees with OQA’s conclusions in a case, it remands the case for additional review
to the ALJ who made the initial decision. The remand actions result from the AC’s own



3
    63 Federal Register 36560 (July 7, 1998).
Page 3 - The Commissioner


motion review authority.4 When remanding the case, the AC indicates the identified
weaknesses in the case in a remand order to the ALJ. The remand document is an
order that vacates the ALJ’s earlier decision and directs the ALJ to take some additional
action(s), such as developing additional evidence and/or holding a supplemental
hearing, before issuing a new decision. Once forwarded, ALJs should address all of the
issues identified in the AC remand order, and then issue a final decision.

Our audit focused on the 2,531 cases5 that the ALJs finalized after receiving an AC
remand order during Fiscal Years (FY) 2000 through 2003, as of March 24, 2004. From
this group, we randomly selected 50 cases from each of the FYs included in our audit
period, for a total of 200 cases. We selected 50 cases from each year to determine if
there were any trends noted from one year to the next in the cases we reviewed
between OQA, the AC and the ALJs. Of the 200 sample cases, we were able to
retrieve and review files for 191 cases.6

RESULTS OF REVIEW

The OHA PER process could be more effective in improving the implementation of the
policies related to ALJ decisionmaking. For example, the process consistently identified
cases where SSRs were not applied, or were improperly applied, from one year to the
next. This condition led to a lack of evidence to support the ALJs’ original decisions and
prompted the AC to issue remand orders. Additionally, some ALJs did not address the
concerns identified in the AC’s remand orders before making revised decisions on the
eligibility of claimants. Lastly, less than 5 percent of the cases we reviewed ultimately
resulted in a change to the original decisions made by ALJs, while the OHA PER
process added an average of 342 days to the processing time of the cases.

Social Security Rulings

SSRs are precedent-setting decisions related to all SSA benefit programs and are
published under the authority of the Commissioner of Social Security. SSRs may be
based on case decisions made at any administrative level of adjudication, Federal court
decisions, Commissioner’s decisions, opinions of the Office of General Counsel, or
policy interpretations of the laws and regulations. Although SSRs do not have the force
and effect of law or regulations, they are binding on all components of SSA and are to
be relied on in adjudicating other cases.

4
 The AC’s own motion review includes issuing a new decision, a dismissal, or a remand (20 C.F.R. §§
404.969(b) and (c), and 416.1469(b) and (c)).
5
 The 2,531 cases included: 1,255 cases from FY 2000; 851 from FY 2001; 266 from FY 2002; and
159 from FY 2003. The cases were from an OQA PER database as of March 24, 2004. As of
February 28, 2005, the ALJs had finalized: 1,377 cases from FY 2000; 1,008 cases from FY 2001;
1,126 cases from FY 2002; and 841 cases for FY 2003 after receiving an AC remand order.
6
  The 191 cases consisted of the following: 46 from FY 2000; 50 from FY 2001; 46 from FY 2002; and 49
from FY 2003. SSA was unable to locate and provide 9 of the 200 case folders we requested.
Page 4 - The Commissioner


In the cases we reviewed, the AC determined that SSRs were not applied, or were
improperly applied, when ALJs made their decisions. The AC’s remand of a case did
not mean the ALJ’s decision on whether the individual was disabled was incorrect. A
remand meant the AC concluded that a decision by the ALJ did not properly implement
an SSR, which indicates there was a lack of consideration or insufficient evidence for
the ALJ’s decision. Examples of this included:

   •   SSR 96-6p requires ALJs to address State agency consultant opinions when
       making a decision. In one case we reviewed, there was no evidence within the
       ALJ’s decision that the findings of the Mississippi Disability Determination
       Services’ medical consultants were considered. Accordingly, the AC requested
       that the ALJ obtain the evidence from a medical expert to clarify the nature and
       severity of the claimant’s impairments, in accordance with SR 96-6p.

   •   SSR 96-7p requires ALJs to describe the reasons a claimant statements are
       credible, particularly when symptoms like the claimant’s pain suggest a greater
       severity of impairment than can be shown by objective medical evidence alone.
       In a case we reviewed, OQA questioned the credibility of the claimant, since he
       gave inconsistent information on his work status. The claimant applied for
       disability benefits in October 1999, due to his disability that left him unable to
       work. The record also showed that the claimant made statements to doctors
       about being semi-retired and working past October 1999. The AC requested the
       ALJ to further evaluate the claimant’s complaints and provide rationale in
       accordance with SSR 96-7p.

   •   SSR 96-8p requires a narrative discussion describing how the evidence cited by
       the ALJ supports each conclusion regarding the claimant’s ability to work, citing
       specific medical facts and non-medical evidence. One remand notice to an ALJ
       stated that the ALJ should give further consideration to the claimant’s ability to
       work and provide rationale to support evidence of any assessed limitations on
       the ability to work, which is consistent with SSR 96-8p.

The AC consistently cited concerns with the same SSRs when remanding cases to
ALJs within the years of our review. The AC often cited concerns with the
implementation of multiple SSRs in a single case. (See the chart on the following
page.)
Page 5 - The Commissioner


                          Number of Cases with SSRs Improperly or Not Applied
    100
     90
     80
     70
     60                                                                                              96-5p

     50                                                                                              96-6p
                                                                                                     96-7p
     40                                                                                    32
                26                             28                                                    96-8p
     30              22 20             21 24                  23 25 26             24 25        24
                                                    18                   18   16                     96-9p
     20    14                12   13                     12
     10
      0
                FY 2000                FY 2001                FY 2002              FY 2003



Evidence

In 179 of the 191 cases (93.7 percent) we reviewed, the AC found that the ALJs’ original
actions, findings, or conclusions were not fully supported by the evidence considered.7
Examples of this included:

     •    A claimant’s alleged impairment consisted of a back fracture with chronic back
          pain. OQA found this type of injury would not normally have a lasting effect and
          indicated that, with time, the pain would be expected to be resolved. The AC
          agreed with OQA and stated that the medical records reveal normal functions
          and that the claimant had few, if any, functional limitations.

     •    A claimant’s alleged impairment was injuries to the nervous system. OQA
          listened to the tape of the hearing where the medical expert testified that the
          medical evidence did not document any medical condition that was disabling or
          resulted in functional limitations. OQA determined that the claimant’s limitations
          were not supported by clinical findings, medical records, or non-medical
          evidence. The AC agreed with OQA and remanded the case to the ALJ to obtain
          updated medical records and clarify the claimant’s ability to perform work activity.




7
 20 C.F.R. §§ 404.970 and 416.1470 indicate that the AC will review a case if the action, findings, or
conclusions of the ALJ are not supported by substantial evidence.
Page 6 - The Commissioner


The AC consistently found cases that lacked evidence to fully support the ALJs’
decisions during the 4 years we reviewed. (See the chart below.)


          Number of Cases Not Fully Supported by Evidence
  100
   90
   80
   70
   60
   50          44                46               45                44
   40
   30
   20
   10
    0
             FY 2000          FY 2001           FY 2002          FY 2003



Remand Orders

ALJs should take any action ordered by the AC in the remand orders. In 24 of the
cases we reviewed, there was no evidence the ALJs collected additional evidence in
response to the remand orders. In these cases, the ALJs affirmed their original
decisions without citing any additional evidence obtained after their original decisions.
Examples of this included:

   •    A claimant’s medical disability was found to include degenerative disc disease,
        chronic pain syndrome, and depression. While the remand order requested that
        the ALJ obtain new evidence from a medical expert to clarify the nature and
        severity of the claimant’s impairments, the ALJ indicated he was satisfied with
        the available evidence to establish that the claimant met the requirements of the
        medical listing.

   •    A claimant alleged that he was disabled due to an injured right hand. The AC
        remand order requested that the ALJ give further consideration to the treating
        source opinion and explain the weight given to that evidence. Further evaluation
        of the claimant’s subjective complaints and symptoms was also requested. The
        ALJ stated that the prior fully favorable decision was upheld and found that the
        claimant had a severe right hand dysfunction.

The number of cases where ALJs did not respond to remand orders during our review
period ranged from a low of 2 cases in FY 2001 to a high of 12 cases in FY 2003. (See
the table on the following page.)
Page 7 - The Commissioner


    Was Additional Evidence Collected in Response to the AC’s Remand Order?

                       FY 2000         FY 2001          FY 2002         FY 2003            Total
    Yes                   41              48               37               34              160
    No                     4               2                6               12               24
    Could Not
                             2                0               3                2                7
    Determine8
    Total                   47              50              46               48              191

SSA incurred administrative costs while reviewing and processing cases submitted by
OQA to the AC, and subsequently forwarded from the AC to ALJs for re-evaluation,
regardless of the final outcome of the disability decisions. SSA staff reported the costs
per case for each part of the process as: $596 for the OQA review; $495 for the AC
review; $1,868 for the post-AC remand ALJ hearing; and $266 for the Federal Disability
Determination Services medical review.9 In the 24 cases where the ALJs did not
address the remand order, SSA incurred the additional costs of the OQA and the AC
reviews, while the ALJs reaffirmed their decisions without addressing the concerns
identified through their reviews.

ALJ Final Decisions

Of the 191 cases reviewed, we found that ALJs affirmed their original decisions in
175 cases, reversed their original decisions in 8 cases and dismissed 3 cases. For the
remaining 5 cases, the folders we obtained did not contain subsequent ALJ decisions,
so we could not analyze the ALJs’ final decision.

Fewer than 5 percent of the cases (8 of 191 cases) resulted in ALJs reversing their
original decisions after cases were remanded to them by the AC, while 342 days
elapsed, on average, between the time of the ALJs’ initial and revised decisions. We
did not review the adequacy of the medical and/or vocational evidence, nor draw
conclusions on the accuracy of each case’s final decision. Accordingly, we could not
determine the cause of the low reversal rate of cases.

The low reversal rate may be caused by one, or a combination of, the following four
conditions: (1) the AC remanded cases that included misapplied SSRs or
documentation requirements that did not affect the cases’ overall merits, so ALJs
affirmed their original decisions; (2) the ALJs held a second hearing after remand and
obtained additional information from the claimant that supported their original decisions;
(3) the AC remanded cases to the ALJs that were not in need of further review; or,
(4) the ALJs did not fully consider the deficiencies noted in the AC remand orders.


8
  Case documentation did not contain the ALJs’ subsequent decision, so we could not determine whether
the ALJs collected additional evidence in response to the AC’s remand order.
9
  These figures are based on FY 2000 cases, the last year costs were calculated at the time of our
review.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We concluded that the OHA PER process could be more effective in improving the
consistent application of SSRs and the collection of supporting evidence, and have a
greater impact on the final ALJ decisions. In the cases we reviewed, the OHA PER
process added three layers of further reviews, increased processing costs and affected
the timeliness of the claimants’ appeals. Despite these factors, the OHA PER process
appeared to have a limited impact on improving the implementation of SSRs and
evidence use, as well as the final ALJ decisions. With less than 5 percent of the
remanded cases being reversed, a more efficient and cost-effective process needs to
be developed. Processes other than a remand notice could be developed to inform
ALJs of concerns with the implementation of SSRs, the level of documentation within
their cases, or other weaknesses within the original decision, where there is little
expectation of a reversal. The OHA PER process would be more effective, and the
costs and delays associated with the process would be better justified, if it had a greater
impact on the final decisions made by ALJs.

The Agency has taken a number of steps to address some of the issues we noted in
this report. For example, SSA has completed 10 region-wide conference calls
regarding quality assurance issues that addressed SSR application associated with
legal error rates. The conference calls included the perspectives of OQA, the Office of
the General Counsel, the AC, and the Office of Appellate Operations. SSA has also
developed Interactive Video Training sessions, which are mandatory viewing for related
staff, on how to improve the quality of decisions. Some of the topics addressed in these
sessions include SSR 96-8p, SSR 96-9p, the use of vocational expert evidence, and
ways to avoid remands. Additionally, SSA has established ongoing workgroups that
have covered the topics of remands, dismissal, and higher standards for review of post
remand decisions.

Accordingly, we recommend that SSA continue to work to improve the OHA PER
referral process to ensure that cases forwarded by OQA to the AC, and those remanded
by the AC to ALJs, have a higher probability of reversal.

AGENCY COMMENTS

SSA agreed, in part, with our recommendation. It agreed that it should continue efforts
to improve the OHA PER process, but stated that the purpose of the process was not to
ensure that the cases reviewed have a higher probability of reversal. In general
comments to the report, SSA stated that the report placed an inordinate emphasis on
non-compliance with SSRs and that the report failed to mention the program cost
savings realized by the correction of some erroneous allowances. It also questioned
the finding in the report that fewer than 5 percent of the cases remanded to ALJs by the
AC resulted in a reversal of the ALJs' original decisions. It noted that OQA data has
shown that the denial rate after remand is more than double 5 percent. The full text of
SSA's comments may be found in Appendix E.
Page 9 - The Commissioner


OIG RESPONSE
We appreciate SSA’s efforts to improve the OHA PER process, and the accuracy of
disability decisions. Our review of cases led us to conclude that the OHA PER process
had a limited impact on improving the implementation of SSRs and evidence use, as
well as the final ALJ decisions. Within the sample we reviewed, we found that fewer
than 5 percent of the remanded cases were reversed. Based on this finding, and the
cost per case reviewed in money and time, we believe that a more efficient and cost-
effective process could be developed. Our findings were based, in part, on a review of
the documentation contained within each case's folder, including the Notice of Order of
AC Remanding Case to ALJ. Within these documents, the AC continually cited
problems with the original decisions based on a misapplication of SSRs and/or a lack of
evidence. We do not believe that we placed an inordinate emphasis on the SSRs; we
simply reported the findings reached by the AC.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A - Acronyms
APPENDIX B - Scope and Methodology
APPENDIX C - Description of the Office of Hearings and Appeals
             Pre-Effectuation Review Process
APPENDIX D - Flowchart

APPENDIX E - Agency Comments

APPENDIX F - OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
AC       Appeals Council
ALJ      Administrative Law Judge
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
DI       Disability Insurance
FY       Fiscal Year
HOTS     Hearings Office Tracking System
MC       Medical Consultant
NDDSS    National Disability Determination Services System
OHA      Office of Hearings and Appeals
OHACCS   OHA Case Control System
OQA      Office of Quality Assurance and Performance Assessment
PER      Pre-Effectuation Review
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Social Security Rulings
                                                                    Appendix B

Scope and Methodology
To complete our objective, we focused on the 2,531 cases the Appeals Council (AC)
forwarded to the Administrative Law Judges (ALJ) for further review during Fiscal Years
(FY) 2000 through 2003. The 2,531 cases were from an Office of Hearings and
Appeals (OHA) Pre-Effectuation Review (PER) database, as of March 24, 2004, which
is maintained by the Office of Quality Assurance and Performance Assessment (OQA).
Of these cases, we sampled 50 cases from each of the 4 years included during our
audit period. We were able to retrieve and review 191 of the 200 cases requested.

We used the following criteria in our review:

   •   OHA PER Process Guide (also known as the “one book”), dated May 22, 2003.
   •   OHA PER Release 1.0 User Manual.
   •   OHA PER Release 1.0 Database and Application Requirements Project #2799
       Manual, dated August 16, 2002.
   •   OHA PER Appendix H (Data Collection Form Coding Instructions), revised
       August 11, 1999.
   •   20 C.F.R. Parts 404 and 416 (revised) dealing with the OHA PER process,
       effective August 6, 1998.
   •   Government Accountability Office Report, Social Security Administration: More
       Effort Needed to Assess Consistency of Disability Decisions (GAO-04-656),
       released July 2, 2004.
   •   Hearings, Appeals and Litigation Law Manual, Chapter I-3-7, Appeals Council
       Remands.
   •   OHA PER Results Data: FY 1998 through February 28, 2003.
   •   Additional policies and laws related to the hearings and appeals process, as
       needed.

To meet our objective, we:

   •   Obtained a database from OQA of 43,611 OHA PER cases during the period
       August 1, 1998 through March 24, 2004.
   •   Determined and analyzed the population of OHA PER cases during our audit
       period (FYs 2000 through 2003) consisting of 31,299 OQA cases sampled and
       22,831 cases actually worked. Of this population, the AC rendered a final
       decision in 1,723 cases and there were revised ALJ decisions in 2,531 cases.
   •   Selected a random sample of 50 cases, from those OHA PER cases with a final
       decision by the ALJ, for each FY between 2000 and 2003.



                                           B-1
      •   Contacted various Social Security Administration (SSA) field offices, warehouse
          locations and decisional locations to retrieve the 200 selected case folders.
      •    Located and reviewed 191 case folders of the 200 cases selected for review.
          SSA was unable to locate 9 of the 200 case folders we requested. Additionally,
          of the 191 case folders we received, 9 folders were incomplete. In these 9
          cases, some of the documents critical to our analysis were missing.
      •   Completed a data collection instrument for each OHA PER case reviewed, which
          summarized the case characteristics obtained from the OQA Referral for AC
          Own-Motion Review, Notice of Order of AC Remanding Case to ALJ, and OHA
          Notice of Decision (initial and revised).
      •   Analyzed the results recorded within the completed data collection instruments
          and information contained in OHA PER database.
      •   Determined OHA PER costs for FY 2000 (the most current completed year for
          which cost information was available) through discussions with SSA staff.
      •   Discussed the steps of the OHA PER process with staff in the components
          involved in the OHA PER review (OQA, AC, ALJs).
      •   Drafted a narrative description of the OHA PER process, which was forwarded
          for review and concurrence to the staff involved in the OHA PER process.
      •   Designed a flowchart of the OHA PER process based on the narrative
          description.

The OHA PER process requires that both OQA and the AC initiate their review of cases
selected for review within a total of 60 days, beginning with the date of the ALJ’s
decision. After this period, the AC advises OQA that it is unable to review the case
within the 60-day period so that benefit payments can be started.1 OQA expressed
concerns over the number of OHA PER cases that were not reviewed by the AC within
the 60-day time period. To address OQA’s concern, we attempted to determine how
many cases were paid because the 60-day time limit expired and the reason this
situation was occurring. For this analysis, we reviewed the OHA PER database
provided by OQA, which contained 43,611 cases. We were unable to review the
number of cases within the database paid due to the 60-day rule, since the data we
received was incomplete regarding the timeliness of processing by the AC. We
concluded that the database was reliable for all of the other analyses we conducted to
produce the findings contained in this report.

We performed our review in New York, with field visits to OQA at SSA Headquarters in
Baltimore, Maryland. The entities audited were OHA within the Office of Disability and
Income Security Programs and OQA within the Office of Finance, Assessment and
Management. We conducted our audit fieldwork from June 2004 through
February 2005. Our review was conducted in accordance with generally accepted
government auditing standards.


1
    20 C.F.R. §§ 404.969 and 416.1469 describing when the Appeals Council initiates review.




                                                    B-2
                                                                                   Appendix C

Description of the Office of Hearings and
Appeals Pre-Effectuation Review Process
The steps in the Office of Hearings and Appeals (OHA) Pre-Effectuation Review (PER)
process are:

Sample Selection - After a hearing office renders a fully or partially favorable decision,
the decision data is entered into the Hearing Office Tracking System (HOTS).1 HOTS
then updates the mainframe OHA Case Control System (OHACCS) daily in an
overnight batch run. OHACCS sends the data to the National Disability Determination
Services System (NDDSS). NDDSS then computes the probability that the case is an
incorrect allowance based on specified case characteristics, such as: claim type; date of
birth; Disability Determination Services code; body system; regulation basis codes;
impairment codes adjudicative level; vocational rehabilitation codes; and title and date
of decision. For cases with the probabilities higher than the cutoff score, an alert is
automatically generated, within 5 days, in HOTS. Hearing office staff then updates
HOTS to reflect the Office of Quality Assurance and Performance Assessment’s (OQA)
destination routing. The 5-day period is needed to allow for the interface between
HOTS, OHACCS and NDDSS. The hearing office then forwards the folder to OQA to
conduct an OHA PER review. OQA inputs receipt of OHA PER cases into the OHA
PER field of the HOTS.

OQA Process - Upon OQA receipt, the Master Beneficiary Record and/or
Supplemental Security Record is annotated to show the claim is selected for OHA PER
and that benefit payments should not begin until the review is completed. The file is
automatically assigned to a disability examiner, who can enlist the assistance of medical
consultants and/or vocational specialists to complete the review. There are two
possible outcomes of the review. Agreements occur when OQA accepts the
administrative law judge’s (ALJ) decision. The claim is then released for payment.
Disagreements occur when OQA finds the ALJ’s decision is either incorrect or not
adequately documented. The claim is then referred to the Appeals Council (AC) for
review.2



1
 Since our review, HOTS has been replaced by the Case Processing and Management System. The
HOTS system was in place during the timeframe of our audit.
2
  20 C.F.R. §§ 404.970 and 416.1470 indicates when the AC will review a case for Title II and Title XVI,
respectively.



                                                   C-1
AC Process - When the AC receives the case, it considers OQA’s reasons for referral.
An OHA PER review must be initiated by both OQA and the AC within a total of 60
days, beginning with the date of the ALJ’s decision. Interim benefits are required to be
paid to the claimant 110 days after the ALJ decision.3 The AC advises OQA if it is
unable to review the case within the 60-day period. If the AC does not review the case
within the 60-day period, benefit payments should begin.

      •   Non-Concurrence -The AC does not always agree with OQA that an AC review
          is needed. OQA uses the preponderance-of-evidence standard, while the AC
          uses a substantial evidence standard. If the AC determines there is substantial
          evidence to support the ALJ’s decision, despite the fact that the evidence may
          suggest a different conclusion, the AC will not review the case. In this situation,
          the AC sends a feedback data form to OQA reflecting this information. The case
          is then sent to the appropriate Field Office or Payment Center for payment.

      •   Concurrence - If the AC concurs with an OQA referral, the AC sends an interim
          notice to the claimant explaining that it has reviewed the claim and is remanding
          the case to an ALJ for additional review and/or hearing. The AC also informs the
          claimant that he or she can submit additional evidence within 30 days. The AC
          will consider the new evidence prior to remanding the case to the ALJ. The AC
          advises OQA of this action.

AC Remand – When a case is remanded to an ALJ, a remand order is issued, vacating
the original ALJ decision and requiring the ALJ to issue a new decision. In addition, the
remand order may direct the ALJ to take further action(s), such as developing additional
evidence or holding a supplemental hearing. The remand also indicates why the action
is necessary. The AC will remand a case to an ALJ if it finds significant evidentiary or
procedural deficiencies. Examples of this include the following: (1) the ALJ applied the
wrong law; (2) the ALJ issued the decision on the record but testimony is necessary;
(3) evidence from an expert witness is needed; (4) additional development is needed
(e.g., consultative examinations, hospital reports, or evidence of work activity); or (5) the
ALJ’s decisional rationale is insufficient. The ALJ will take any action that is ordered by
the AC and may take any additional action that is not inconsistent with the AC’s remand
order.4 If the AC can obtain the additional evidence expeditiously and without adversely
affecting the claimant’s rights, it may do so and issue a decision.

OQA Procedures Following AC Action - To ensure timely actions are taken by the AC
and the ALJ, periodic follow-ups are performed on OHA PER cases. A schedule is
used by OQA to follow-up on any case where an initial response has not been received

3
 Section 223(h) and 1631(a) of the Social Security Act, and POMS sections SI 02007.001 and DI
42010.205. Interim benefits are allowed for if a final decision on a claimant’s appeal has not been issued
within 110 calendar days after the date of the initial ALJ decision on the entitlement to benefits. Interim
benefits are discontinued when a final decision is issued and they are not considered an overpayment
unless they are fraudulently obtained, even if the final decision is unfavorable (20 C.F.R. §§ 404.969(d)
and 416.1469(d)).
4
    20 C.F.R. §§ 404.977(b) and 20 C.F.R. 416.1477(b) for Title II and Title XVI cases, respectively.


                                                      C-2
from the AC within 120 days of the decision date or a final response is not received
within 6 months of the date of the initial AC memo. On a monthly basis, OQA will obtain
OHACC queries on all cases remanded to an ALJ where an action has not been taken
within 6 months of the remand.




                                          C-3
                                                                                                                   Appendix D

Flowchart
Sample selection              Alert generated to             Hearings office sends case to          OQA inputs receipt of
[based on                     computerized case              Office of Quality Assurance            case into Pre-
probability that              tracking system                and Performance Assessment             Effectuation Review
case is an incorrect          indicating case was            (OQA) for review                       (PER) field of the
Administrative Law            selected for review                                                   case tracking system
Judge (ALJ)
allowance]
                                                                     OQA sends case for
                                 OQA inputs results of               Examiner/Medical
      OQA reviews                Examiner/MC review                                                 OQA annotates the
                                                                     Consultant (MC)
      Examiner/MC’s              into PER data base                                                 Master Beneficiary
                                                                     review of ALJ’s
      determination                                                                                 Record or the
                                                                     original allowance
                                                                                                    Supplemental Security
                                                                     decision
                                                                                                    Income Record to show
                                                                                                    case was selected for
                                                                                                    review (stops payment
                                                                                                    of benefits until review
                                                                                                    is completed)
    OQA agrees and                         OQA disagrees and
    sends case to                          sends case to Appeals
    Processing Center for                  Council (AC) for review
    payment of benefits

                                                                                          Administrative Law Judge
                                                                                          1. AC remand order requires
                                                                                             ALJ to issue a new decision
                                                                                          2. Remand order may direct ALJ
                                   AC agrees with OQA’s determination                        to take further action(s), such
                                   that the ALJ’s original decision is                       as developing additional
      AC disagrees with            incorrect
      OQA determination-                                                                     evidence or holding a
                                   1. Case sent to ALJ for review                            supplemental hearing
      Case sent to                 2. Interim notice sent to claimant
      Processing Center for                                                               3. ALJ will take any action
                                       informing him or her that the case                    ordered by the AC
      payment of benefits              was sent to the ALJ for additional                 4. ALJ may take any additional
                                       review and/or hearing (Claimant                       action consistent with AC’s
                                       has 30 days to submit additional                      remand order
                                       evidence to AC prior to case being                 5. ALJ issues a revised decision
                                       remanded to the ALJ)
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM
                                                                                               101-24-1062
Date:      September 2, 2005                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Revised Draft Report, “Office Of Hearings And Appeals
           Pre-Effectuation Review Process" (A-02-03-13083) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the revised draft report
           content and recommendation are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “OFFICE OF HEARINGS AND APPEALS PRE-EFFECTUATION REVIEW
PROCESS" (A-02-03-13083)


Thank you for the opportunity to review and comment on the revised draft report. We note that
the original draft report has been reworked after receiving our comments. Although this version
has incorporated many of SSA’s earlier comments, we continue to have some serious concerns.

The report still places an inordinate emphasis on non-compliance with the Social Security
Rulings (SSR). On page 3, under “Results of Review,” the report states that misapplication or
failure to apply SSRs led to a lack of evidence to support the Administrative Law Judge's (ALJ)
decision. That conclusion is not accurate. It is possible to have a decision that is supported by
the evidence but does not comply with one or more SSRs. The report does not mention that the
Office of Hearings and Appeals (OHA) Pre-Effectuation Review (PER) process only collects
SSR compliance data on decisions that are not supported by a preponderance of the evidence.
Except for the first few years, this process does not collect data on SSR compliance when the
decision is supported by a preponderance of the evidence. If it did, the data would show that
there is also some SSR non-compliance in these decisions as well; this finding in hearing
allowance decisions has been substantiated in the Peer Review Reports.

On page 4, in the first full paragraph, the report continues to place emphasis on the SSRs, stating
that, "A remand meant the [Appeals Council] AC concluded that a decision by the ALJ did not
properly implement an SSR, which indicates there was a lack of consideration or insufficient
evidence for the ALJ’s decision.” The three ensuing bullets that provide examples continue to
confuse the process. The report seems to conclude by these examples that non-compliance with
the SSRs resulted in the remands. Instead, the proper conclusion is that the remands were the
result of insufficient evidence to support the decision and that the SSRs were identified by the
AC as the appropriate references for ALJs to follow when developing the required evidence.

On page 6, under “Remand Orders,” the report identifies 24 cases where there was no evidence
the ALJs collected additional evidence in response to the remand orders. Although this may be
correct, we would also note that holding a hearing that resulted in taking additional testimony
constitutes new evidence that would make the new decision based on a different record than the
original one.

On page 7, we question the report’s documentation of OHA PER’s administrative costs without
any mention of the program cost savings realized by the ultimate correction of some erroneous
allowances. As noted in our original comments, SSA’s Office of the Chief Actuary has indicated
that their analysis of Fiscal Year (FY) 2000 data shows that the actuarial present value of
estimated program savings attributable to OHA PER is about $16.8 million for all programs
combined after deducting $9.8 million in administrative costs. For the combined FY 1999-2000
period, the estimated cumulative program savings amounted to $37.5 million, or about $3.10 for
every dollar spent. Given these results, we recommend further consideration of the report’s
statement on page 8 under “Conclusions and Recommendations” that a more cost-effective
process needs to be developed.


                                                E-2
On pages 3 and 7, we question the report's finding of a 5 percent “reversal” rate. The Office of
Quality Assurance and Performance Assessment (OQA) data show that the denial rate after
remand is more than double this. Moreover, the report does not consider the impact of
dismissals, which are as effective as denials in that benefits are not awarded. Under “ALJ Final
Decisions” on page 7, the report indicates that fewer than 5 percent (8 out of 191 cases) resulted
in a “reversal” of the original decision. However, what should be reported is that about 6 percent
(11 out of 186) were either denied or dismissed and were thus not awarded benefits as they had
been in the original decisions. Because the report notes that the final decisions of five cases
remain unknown, these cases should be excluded from this computation, reducing the total
to 186.

Nonetheless, the purpose of the OHA PER process is not to ensure that the cases reviewed "have
a higher probability of reversal," as recommended by the report. The PER process was
implemented to ensure the quality of case disposition and ALJ decisionmaking at the hearing
level of the administrative review process. Its objectives are to identify incorrect hearing-level
allowances, promote consistent case adjudication and review as well as clarify any policy and
procedural issues arising out of the review.

Our response to the specific recommendation and some suggested editorial comments are
provided below.

Recommendation 1

"... SSA [should] continue to work to improve the OHA PER referral process to ensure that cases
forwarded by OQA to the AC, and those remanded by the AC to ALJs, have a higher probability
of reversal.”

Response

We agree that SSA should continue efforts to improve the ALJ PER process. However, the
purpose of the OHA PER process is not to ensure that the cases reviewed "have a higher
probability of reversal." The PER process was implemented to ensure the quality of case
disposition and ALJ decisionmaking at the hearing level of the administrative review process.

[The Agency also provided editorial comments which have been incorporated as
appropriate.]




                                               E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

   Vicki Abril, Audit Manager, New York Office of Audit, (212) 264-0504

Acknowledgments

In addition to those named above:

   Stephen Liebman, Senior Auditor-in-Charge

   Robert Blake, Senior Auditor

   Arthur Treglia, Senior Auditor

   Kevin Joyce, Senior Auditor

   Christine Chen, Auditor

   Christine Hauss, Program Analyst

   Abraham Pierre, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-03-13083.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
